 




 
 




    REVIEW OF THE USE OF MULTIPLE AWARD
    SCHEDULE CONTRACTS FOR ACQUISITION
       MANAGEMENT SUPPORT SERVICES
      REPORT NUMBER A090018/Q/A/P10009

               August 17, 2010




 
 


                   REVIEW OF THE USE OF MULTIPLE AWARD
                   SCHEDULE CONTRACTS FOR ACQUISITION
                      MANAGEMENT SUPPORT SERVICES
                     REPORT NUMBER A090018/Q/A/P10009


                              TABLE OF CONTENTS

                                                                                Page
EXECUTIVE SUMMARY                                                                 i
INTRODUCTION                                                                     1
   Background                                                                    1
       Exhibit 1: Comparison of the Federal Acquisition Workforce to Contract
       Spending                                                                  1
   Objectives, Scope, and Methodology                                            3
RESULTS OF REVIEW                                                                5
   Brief                                                                         5
   FAS Can Improve Controls to Provide Greater Assurance that Ordering
   Agencies Take Steps to Mitigate Risk                                          6
       Exhibit 2: Examples of Inherently Governmental Functions and Functions
       Approaching Inherently Governmental                                      7
       Recommendations 1, 2, 3                                                  11
   FAS Should Assess Risk When Considering Schedules Program Changes            11
       Recommendation 4                                                         12
   Agencies May Have Improperly Used Schedule Contracts for AMS Services        12
       Exhibit 3: PSC R707 Sales under Schedule Contracts in FY 2007 &
       FY 2008                                                                  13
       Recommendations 5, 6                                                     15
   Conclusion                                                                   15
   Internal Controls                                                            16
   Management Comments                                                          16
APPENDICES
   Appendix A – Management Comments                                             A-1
   Appendix B – Report Distribution                                             B-1




 
 


                   REVIEW OF THE USE OF MULTIPLE AWARD
                   SCHEDULE CONTRACTS FOR ACQUISITION
                      MANAGEMENT SUPPORT SERVICES
                     REPORT NUMBER A090018/Q/A/P10009

                               EXECUTIVE SUMMARY
Purpose

We performed this review to determine if the General Services Administration’s (GSA’s)
policies and procedures are adequate to mitigate the risks associated with procuring
Acquisition Management Support (AMS) services through the Multiple Award Schedule
(Schedules) Program. We focused on the controls the Federal Acquisition Service
(FAS) created for customer agencies ordering AMS services on the Mission Oriented
Business Integrated Services (MOBIS) Schedule.


Background

FAS approved the addition of AMS services to the MOBIS Schedule in April 2007.
Proper management of these services is essential to mitigate risks associated with
contractors providing these services, including contractors performing inherently
governmental functions and conflicts of interest. In June 2007, the U.S. House of
Representatives Committee on Oversight and Government Reform raised concerns to
GSA about the decision to offer AMS services due to the increasing presence of
contractors performing government contract oversight and management. To address
these concerns, FAS’s Management Services Center (MSC) created ordering
instructions for agencies seeking to obtain these services under MOBIS Schedule
contracts.    The instructions outline policies and procedures that agencies can
implement to reduce the risks associated with these services.


Results in Brief

While the MSC has created instructions to assist ordering agencies in mitigating the
risks associated with AMS services, the MSC could improve the instructions by placing
more emphasis on measures that address the leading causes of risk. The MSC should
also increase awareness of the instructions. In addition, the MSC should develop and
implement a plan to monitor the ordering instructions to provide assurance that the
guidance effectively assists agencies in diminishing the threats frequently linked with
AMS services. Further, we noted that the current FAS process for making changes to
the Schedules Program, including introducing new products and services, does not
require a risk assessment. A risk assessment is an important tool to identify the
potential consequences of making changes to the Program and should be part of this
process.




                                           i 
 


Lastly, in fiscal years 2007 and 2008, federal agencies reported ordering $111.6 million
in contract, procurement, and acquisition support services from Schedules contracts,
some of which are outside the scope of the Schedules Program. 1 Utilizing contractors
to order goods and/or services outside the scope of their contracts circumvents
competition requirements and violates the terms and conditions of the contracts. As a
result, the Government may not have received the best value for these services. In
addition, agencies that order AMS services on unauthorized Schedule contracts may
not be exposed to the MOBIS ordering instructions designed to mitigate risk. Therefore,
FAS should assess the extent to which out of scope work is occurring on the Schedule
contracts and implement corrective measures.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:
     1. Add to the Special Ordering Instructions for MOBIS Acquisition Management
        Support (a) the Sample Acquisition Management RFQ [Request for Quote]
        developed by FAS’s Center for Innovation for Acquisition Development or similar
        document that exemplifies a well-defined statement of work and (b) language to
        emphasize the importance of periodic training for government employees to
        properly manage contractors performing AMS services.
     2. Fully implement the marketing and business development efforts outlined in the
        MOBIS Schedule SIN [Special Item Number] 874-6 Business Case Analysis to
        ensure the widest communication of the Special Ordering Instructions for MOBIS
        Acquisition Management Support.
     3. Develop and implement a plan to monitor the Special Ordering Instructions for
        MOBIS Acquisition Management Support to assure the instructions are effective
        in helping agencies mitigate risk.
     4. Include in the update of the process for making changes to Schedule Program
        offerings the requirement for acquisition centers to perform a risk assessment
        when making changes to the Schedules Program. This requirement should
        include procedures for developing control activities to mitigate risk as necessary.
     5. Assess the extent to which agencies are improperly using Schedule contracts to
        order AMS services and implement corrective action. The corrective action
        should include guidance to customer agencies on the proper use of Schedule
        contracts.
     6. Assess the extent to which Schedule contractors are improperly providing AMS
        services and take corrective action. The corrective action should include
        guidance to contractors on what services are appropriate for the Schedule.




                                                            
1
    www.fpds.gov, query of Product and Service Code R707 data (December 2008).

                                                               ii 
 


Management Comments

The Commissioner of the Federal Acquisition Service concurred with our findings and
recommendations. Appendix A of this report contains the Commissioner’s comments in
their entirety.




                                         iii 
 


                                           REVIEW OF THE USE OF MULTIPLE AWARD
                                           SCHEDULE CONTRACTS FOR ACQUISITION
                                              MANAGEMENT SUPPORT SERVICES
                                             REPORT NUMBER A090018/Q/A/P10009


                                                               INTRODUCTION

Background

As government contract spending has risen, the federal acquisition workforce has
remained relatively static. Increasingly, federal agencies have turned to private
contractors to supplement their acquisition workforces. As shown in Exhibit 1, federal
spending on contracts increased by 153 percent between fiscal years (FYs) 2000 and
2008. 2 During the same period, the federal acquisition workforce increased by only 18
percent, leaving 64,614 acquisition professionals to award and administer contracts
valued at $527.5 billion in FY 2008.

Exhibit 1: Comparison of the Federal Acquisition Workforce to Contract Spending




To bridge the gap, agencies spent approximately $500 million in FY 2007 and $600
million in FY 2008 for acquisition support services. 3 The use of contractors for these
services carries an increased risk, particularly as it relates to contractors performing
inherently governmental functions and the potential for conflicts of interest. As a result,
                                                            
2
  www.fedspending.org (February 2010) and Federal Acquisition Institute, FY 2008 Annual Report on the Federal
Acquisition Workforce. Acquisition workforce totals do not include contracting officer’s technical representative and
acquisition program and project professionals, as that data was not available prior to 2008.
3
  www.fpds.gov, search of FYs 2007 & 2008 Product/Service Code R707 - contract, procurement, and acquisition
support services data (October 2009).

                                                                    1 
 


federal agencies must be aware of these risks and take necessary preventative
measures to mitigate risk.

The General Services Administration’s (GSA’s) Mission Oriented Business Integrated
Services (MOBIS) Schedule 874 offers a full range of management and consulting
services that agencies can order directly from Multiple Award Schedule (Schedules)
contractors. In April 2007, GSA’s Federal Acquisition Service (FAS) approved the
addition of Acquisition Management Support (AMS) services to the MOBIS Schedule.
In June 2007, however, the U.S. House of Representatives Committee on Oversight
and Government Reform raised concerns about FAS’s decision to offer these services
through the Schedules Program. The committee expressed trepidation about the
increasing presence of contractors in government contract oversight, in part due to
reports of conflicts of interest and inefficient contract management during the
reconstruction of Iraq. 4

To address these concerns, FAS’s Management Services Center (MSC), which
administers the MOBIS Schedule, developed guidance (herein referred to as the
Special Ordering Instructions) for the proper use of the MOBIS Schedule for AMS
services. The Special Ordering Instructions include strategies to reduce the risks
associated with these services.

AMS services under the MOBIS Schedule include:
             Acquisition planning assistance, including market research and procurement
              strategy;
             Acquisition document development, including cost/price estimates, quality
              assurance surveillance plans, statements of work, synopses, solicitations, price
              negotiation memoranda, etc;
             Expert assistance in supporting proposal evaluations, including price/cost
              analysis or technical proposal analysis;
             Contract administration support services, including assistance with reviewing
              contractor performance, developing contract modifications, and investigating
              reports of contract discrepancies; and
             Contract close-out assistance.




                                                            
4
 United States House of Representatives Committee on Government Reform, Contractors Overseeing Contractors:
Conflicts of Interest Undermine Accountability in Iraq (May 2004).


                                                               2 
 


Objectives, Scope, and Methodology

The objectives of this review were to answer the following questions:

    1. Are GSA’s policies and procedures adequate to mitigate the risks associated with
       procuring AMS services through the Multiple Award Schedule Program?
    2. If not, what are the potential consequences of improper use of these contracts?
    3. If the consequences are significant, what are the causes?
    4. Additionally, what policies and procedures can GSA implement to reduce the
       risks associated with using contractors for this type of work?

We performed the following steps to answer our objectives:

       Reviewed relevant policy and guidance, including the Federal Acquisition
        Regulation (FAR); the Competition in Contracting Act of 1984; the Office of
        Management and Budget (OMB) policy and guidance; GSA Acquisition Letter V-
        09-01; GSA’s Missions, Values, and Goals; GSA’s Strategic Plan for FY 2007
        through FY 2012; and the National Defense Authorization Act for FY 2005;
       Reviewed relevant audit reports from GSA’s Office of Inspector General (OIG),
        the U.S. Government Accountability Office (GAO), and the U.S. House of
        Representatives Committee on Government Reform;
       Reviewed the FY 2008 Annual Report on the Federal Acquisition Workforce by
        the Federal Acquisition Institute;
       Reviewed the Internal Controls at the General Services Administration Desk
        Guide and GAO’s Standards for Internal Control in the Federal Government
        dated November 1999;
       Met with FAS management officials;
       Reviewed a sample of MOBIS Schedule Special Item Number (SIN) 874-6
        contracts;
       Reviewed the Acquisition Management Support Ordering Guide, the Special
        Ordering Instructions for MOBIS Acquisition Management Support Services, and
        the Sample Nondisclosure Statement, Acquisition Support Services developed
        by the MSC;
       Reviewed GSA’s policy and guidance related to adding new services to the
        Schedules Program;
       Met with Schedule contractors offering AMS services; and
       Reviewed a sample of Information Technology Schedule 70 (IT Schedule) task
        orders and met with a sample of IT Schedule contractors related to these task
        orders.

We focused this review on the controls the MSC developed for AMS services on the
MOBIS Schedule. Because of the limited amount of AMS services sales against the
MOBIS Schedule at the time of our review, we did not perform substantive testing on

                                           3 
 


task orders to evaluate control compliance. However, during our review we learned that
FAS’s Center for Innovation for Acquisition Development awarded Blanket Purchase
Agreements (BPAs) for AMS services against MOBIS Schedule contracts. We
assessed the controls FAS implemented over the use of the BPAs and whether FAS
planned and executed the BPAs in accordance with the FAR and the American
Recovery and Reinvestment Act of 2009 requirements. The results of our assessment
are contained in report number A090018/Q/A/P10002, Review of the Federal
Acquisition Service Blanket Purchase Agreements for Acquisition Management Support
Services issued March 30, 2010.

We conducted the review from October 2008 through May 2009 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                          4 
 


                     REVIEW OF THE USE OF MULTIPLE AWARD
                     SCHEDULE CONTRACTS FOR ACQUISITION
                        MANAGEMENT SUPPORT SERVICES
                       REPORT NUMBER A090018/Q/A/P10009


                                 RESULTS OF REVIEW

Brief

The use of contractors for AMS services exposes the Government to serious risks,
including conflicts of interest and contractors performing inherently governmental work.
To protect the public interest, it is critical for agencies to carefully consider these risks
and take preventative measures. The MSC created Special Ordering Instructions with
information essential to averting the dangers commonly associated with procuring AMS
services. However, the MSC should enhance the instructions by placing more
emphasis on measures that address the leading causes of risk associated with these
services. In addition, the MSC should fully communicate the Special Ordering
Instructions to provide greater assurance that agencies take preventative measures
when acquiring AMS services on the MOBIS Schedule. Further, the MSC should
develop and implement a plan to monitor the Special Ordering Instructions to determine
whether the guidance is effective in assisting agencies to diminish the threats frequently
linked with AMS services.

In addition, we noted that the FAS process for making changes to the Schedules
Program, including introducing new products and services, does not include a risk
assessment. A risk assessment is important to identifying weaknesses and helps to
establish controls necessary to achieving agency objectives for the Schedules Program.
FAS is considering updating these procedures and should require acquisition centers to
assess risk prior to proposing changes to the Schedules Program.

Lastly, in FY 2007 and FY 2008, agencies reported acquiring $111.6 million in contract,
procurement, and acquisition support services under FAS’s Schedules Program. The
large majority of these orders were placed under the IT Schedule. A limited review of a
sample of IT Schedule orders indicated that the work included AMS services, which are
not within the scope of the IT Schedule. We believe that an overly broad definition of
the SIN under which agencies placed the orders may have been a contributing factor.
The procurement of products and services outside the scope of Schedule contracts
violates competition requirements and contract terms and conditions. Further, agencies
ordering AMS services outside the MOBIS Schedule may not be privy to the Special
Ordering Instructions FAS developed to assist agencies in mitigating risks associated
with AMS services. Accordingly, FAS should assess the extent that agencies are
improperly procuring AMS services under the Schedules Program and implement
corrective action.
 



                                             5 
 


FAS Can Improve Controls to Provide Greater Assurance that Ordering Agencies
Take Steps to Mitigate Risk

The MSC Special Ordering Instructions provide a strong foundation for consideration of
the risks associated with AMS services. However, the MSC should provide ordering
agencies with additional information to assist in avoiding negative outcomes related to
using contractors for these services. More emphasis on the importance of the
appropriate level of oversight required to manage contractor performance, as well as
the need to provide government contracting officials with training, would improve the
usefulness of the instructions. In addition, the MSC should fully implement its marketing
and business development efforts relative to communicating the Special Ordering
Instructions to customer agencies. Further, the MSC should develop and implement a
plan to monitor the quality of the Special Ordering Instructions.

       Special Ordering Instructions Should Emphasize Measures that Address Leading
Causes of Risk. The Special Ordering Instructions outline FAR and OMB Office of
Federal Procurement Policy (OFPP) provisions that address inherently governmental
functions and conflicts of interest. 5 However, because of the level of risk that
accompanies AMS services, the ordering instructions should place more emphasis on
measures that address the leading causes of the risks associated with these services.

The use of contractors for AMS services increases the risk that contractors will perform
inherently governmental functions. The FAR defines an inherently governmental
function as one that is so intimately related to the public interest as to mandate
performance by government employees. An inherently governmental function includes
activities that require either the exercise of discretion in applying government authority,
or the making of value judgments in making decisions for the Government. 6 The FAR
prohibits the use of contractors for inherently governmental functions, as well as
activities that may approach that of inherently governmental if not properly managed. 7
See Exhibit 2 for examples of these functions.




                                                            
5
  OFPP is currently developing additional guidance to help agencies determine inherently governmental functions.
Therefore, FAS may need to update the Special Ordering Instructions to reflect this new guidance, as well as the
scope of Schedules offering these services.
6
  FAR § 2.101 —Definitions, “Inherently governmental function.”
7
  FAR § 7.5 —Inherently Governmental Functions.

                                                               6 
 


Exhibit 2: Examples of Inherently Governmental Functions and Functions
Approaching Inherently Governmental

                                                                       May Approach Inherently
                     Inherently Governmental
                                                                             Governmental
       • The determination of agency policy,                    • Contractors providing technical
         such as determining the content and                      evaluation of contract proposals.
         application of regulations, among                      • Services in support of acquisition
         other things.                                            planning.
       • The direction and control of federal                   • Contractors providing assistance in
         employees.                                               contract management (such as where
       • The command of military forces,                          the contractor might influence official
         especially the leadership of military                    evaluations of other contractors);
         personnel who are members of the                       • Contractors providing assistance in
         combat, combat support, or combat                        the development of statements of
         service support role.                                    work.


Reliance on contractors for AMS services can also increase the risk of organizational
and personal conflicts of interest. Contractors that provide services where an actual or
potential conflict of interest exists may obtain an unfair competitive advantage or offer
advice or assistance that is not in the best interest of the Government. The FAR
describes procedures for identifying and mitigating conflicts of interest and illustrates
situations where conflicts of interest may arise. 8 Conflicts of interest may exist if
contractors:

             Participated in earlier work related to the ordering agency’s program or activity;
             Have been privy to information that could influence government decision making
              on the work being performed;
             Have personnel that have previously worked for the ordering agency; and
             Have worked with clients affected by the ordering agency’s task order.

Federal agencies procuring AMS services must ensure that they identify any actual or
potential conflicts of interest and take the appropriate steps to reduce this risk.

Recent audit reports have exposed potential negative outcomes that can occur when
agencies use contractors for AMS services. For example, in May 2004, the U.S. House
of Representatives Committee on Oversight and Government Reform reported that
contractors supervising the reconstruction in Iraq lacked independence; oftentimes
having close business relationships with the construction contractors they were hired to
oversee. 9 In April 2005, GAO reported on a contractor that, “…was allowed to play a
large role in aspects of the procurement process normally performed by government
                                                            
8
 FAR § 9.5—Organizational and Consultant Conflicts of Interest.
9
 United States House of Representatives Committee on Government Reform, Contractors Overseeing Contractors:
Conflicts of Interest Undermine Accountability in Iraq (May, 2004).

                                                               7 
 


personnel.” 10 In September 2007, GAO reported on cases where contractors closely
supported the performance of inherently governmental functions. 11

These audit reports indicated that the primary causes of these conditions centered on
(1) a lack of management oversight and (2) inadequate training. The September 2007
report found that few program and contracting officials believed that these services
required greater oversight. The report also found that the level of oversight did not
always ensure accountability for decisions. The April 2005 GAO report indicated that
government officials “lacked knowledge of contracting issues and were not aware of
their basic duties and responsibilities [in administering the orders].” While federal
agencies have a need to supplement an understaffed acquisition workforce, these
cases exemplify the need for proper controls when using contractors for AMS services.

The Special Ordering Instructions already identify the need for proper management
oversight. The instructions include complying with the following OFPP guidance prior to
issuing a request for quote for AMS services on the MOBIS Schedule:

              Pursuant to OFPP Policy Letter No. 93-1, Managing Oversight of Service
              Contracting, ordering activities contemplating the use of acquisition
              support services should address the following questions prior to soliciting
              and/or awarding services under a MOBIS task order. GSA strongly
              recommends that ordering activities document responses in an agency-
              prescribed format (i.e., memorandum to the file, or a Determination and
              Findings (D&F)) which addresses all questions below:
              1) Is the requirement for inherently governmental services as defined
                      either by FAR 7.5 or by the ordering agency? (If the answer is yes, the
                      services shall not be solicited under MOBIS. The services must only
                      be performed by qualified government employees. If the answer is no,
                      proceed to the next questions.)
              2) Are there sufficient resources to evaluate contractor performance when
                      the statement of work requires the contractor to provide advice,
                      analysis and evaluation, opinions, alternatives, or recommendations
                      that could significantly influence agency policy development or
                      decision-making? Identify the resources that will be utilized under a
                      resultant task order.
              3) Is the statement of work so broadly written that it does not specify a
                      contract deliverable or require progress reporting on contractor
                      performance? (If the answer is yes, the statement of work/RFQ
                      [Request for Quote] is not yet ready for issuance.) Address how the

                                                            
10
   GAO-05-201, Interagency Contracting: Problems with DOD’s and Interior’s Orders to Support Military Operations
(April 2005).
11
   GAO-07-990, Department of Homeland Security, Improved Assessment and Oversight Needed to Manage Risk of
Contracting for Selected Services.

                                                               8 
 


                      statement of work addresses these issues to ensure acceptable
                      contractor performance/deliverables.
              4) Is there concern that the agency lacks the expertise to evaluate
                      independently the contractor’s approach, methodology, results,
                      options, conclusions, or recommendations? Explain how the agency
                      will perform/provide the independent evaluation of the contractor’s
                      work.

The MSC could strengthen these instructions, however, by expanding upon the
following areas:

             Provide more detail on well defined statements of work (SOWs). Our
              review of the BPAs FAS awarded under MOBIS Schedule contracts for
              AMS services identified policies and procedures FAS developed to reduce
              the risks associated with AMS services. This included a sample RFQ 12
              which provides an example of a well defined SOW and illustrates
              techniques for mitigating the risks of contractors performing inherently
              governmental work and conflicts of interest. We believe it would be very
              helpful to agencies to have access to this type of document.

             Discuss the importance of maintaining a well educated contracting staff
              capable of properly managing contractors performing AMS services.
              Because prior GAO audit reports identified inadequate training as a
              primary cause of negative outcomes associated with AMS services, we
              believe this discussion is appropriate.

Expanding the instructions to include the areas described above would elaborate on a
fundamental preventative procedure associated with AMS services and address the
other leading cause of risk.

    The MSC Should Fully Communicate the Special Ordering Instructions. The Special
Ordering Instructions contain information critical to mitigating the risks associated with
procuring AMS services, and the MSC should ensure widespread communication of the
instructions. The standards for internal control require timely communication of control
responsibilities to stakeholders to reasonably ensure the success of organizational
objectives. The MSC developed marketing and business development efforts to
communicate to customer agencies the addition of AMS services to the MOBIS
Schedule. However, the MSC cited sensitivity issues as the reason for not fully
implementing these efforts.

The MSC developed a Business Case Analysis (BCA) as part of the process of adding
AMS services to the Schedules Program. The BCA included the following marketing
and business development efforts surrounding the communication of the addition of
AMS services to the Schedules Program:
                                                            
12
     FAS Center Innovation for Acquisition Development, Sample Acquisition Management RFQ.

                                                               9 
 



       An article in Marketips outlining the change;
       A broadcast bulletin to all FAS marketing personnel on the changes with a
        request that they inform customers and update their presentation material;
       A targeted email campaign to current MOBIS customers;
       A targeted marketing campaign to all assisted services shops; and
       Updated training material for MSC and regional marketing personnel.

The MSC conducted a video conference with marketing and FAS Assisted Acquisition
Services personnel and updated all training materials related to AMS services.
However, the MSC has not implemented the remaining marketing and business
development efforts aimed primarily for customer agencies.

MSC officials indicated that they chose to delay efforts to communicate the Special
Ordering Instructions to external customers to allow time to determine the impact of the
new offering and assess how external customers are using AMS services. However,
the MSC informed us of its ongoing efforts to educate external customers through onsite
training presentations on how to procure professional services under the Schedules
Program, including AMS services. In addition, we believe that fully communicating the
Special Ordering Instructions will provide greater assurance that external customers
acquiring AMS services are aware of the preventative measures to mitigate risk.
Effective and timely communication of information surrounding policies and procedures
is an important standard of internal control and essential to achieving compliance
requirements.

    The MSC Should Monitor the Special Ordering Instructions. In order to assure the
effectiveness of the Special Ordering Instructions, the MSC should develop and
implement a plan to monitor the ordering instructions. The Internal Controls at the
General Services Administration Desk Guide states that once controls are in place, it is
crucial to monitor and test the controls to identify weaknesses. MSC officials indicated
that monitoring the ordering instructions would place them in the objectionable role of
policing ordering agencies’ use of the Schedules Program. While we understand that
the ordering agency has the primary responsibility to avert the risks associated with
AMS Services, FAS also has a responsibility as the owner of the Schedules Program to
provide high quality guidance for use of the program. By monitoring the Special
Ordering Instructions, the MSC can update and/or clarify the instructions to improve
assurance that the instructions are useful for agencies to mitigate risk. For example,
forthcoming changes in OFPP guidance on inherently governmental functions should be
incorporated into the Special Ordering Instructions.

Questions to consider when monitoring the Special Ordering Instructions might include:

       Is there evidence that the instructions are/are not well understood?
       Do the instructions convey a message that encourages external customers and
        contractors alike to take the steps necessary to protect the Government against
        the risks associated with AMS services?
                                           10 
 


             Is there evidence that the MSC is/is not adequately promoting awareness of the
              Special Ordering Instructions?
             Do customers and/or contractors want additional information to assist them in the
              proper use of AMS services?

The MSC’s development and implementation of a plan to continuously monitor the
Special Ordering Instructions should help answer these questions and identify potential
improvements.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:
      1. Add to the Special Ordering Instructions for MOBIS Acquisition Management
         Support (a) the Sample Acquisition Management RFQ developed by FAS’s
         Center for Innovation for Acquisition Development or similar document that
         exemplifies a well-defined statement of work, and (b) language to emphasize the
         importance of periodic training for government employees to properly manage
         contractors performing AMS services.
      2. Fully implement the marketing and business development efforts outlined in the
         MOBIS Schedule SIN 874-6 Business Case Analysis to ensure the widest
         communication of the Special Ordering Instructions for MOBIS Acquisition
         Management Support.
      3. Develop and implement a plan to monitor the Special Ordering Instructions for
         MOBIS Acquisition Management Support to assure the instructions are effective
         in helping agencies mitigate risk.


FAS Should Assess Risk When Considering Schedules Program Changes

In reviewing the controls the MSC established for AMS services, we evaluated the
process by which FAS added these services to the Schedules Program. We
determined that the current process for making changes to the Schedules Program is
outdated and does not require acquisition centers to perform a risk assessment. A risk
assessment is an important consideration in making changes to Schedule offerings and
assists in establishing controls necessary to achieve program objectives. 13 FAS
officials were aware of the need to update this process and indicated they had plans to
study the issue. We believe that the revised procedures should include a risk
assessment to identify the potential for negative outcomes associated with changes to
the Schedules Program.

The current FAS process for adding items to the Schedules Program requires
acquisition centers to complete a Pre GSA Form 1649, Recommendation for


                                                            
13
     GAO’s, Standards for Internal Control in the Federal Government (November 1999).

                                                               11 
 


Improvement of Federal Supply Schedules. 14 The process also requires acquisition
centers to complete a Business Case Profile for all new schedules, SINs, services, or
products and includes a formal approval process. While the MSC proactively conducted
a risk assessment upon adding AMS services to the MOBIS Schedule, the current
process does not require a risk assessment. Performing this step not only alerts
management of the possible risks related to the products or services in question but can
also help shape the controls necessary to reduce risk.

Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

     4. Include in the update of the process for making changes to Schedules Program
        offerings the requirement for acquisition centers to perform a risk assessment
        when making changes to the Schedules Program. This requirement should
        include procedures for developing control activities to mitigate risk as necessary.


Agencies May Have Improperly Used Schedule Contracts for AMS Services

In FY 2007 and FY 2008, federal agencies used Schedule contracts to procure $111.6
million in contract, procurement, and acquisition support services, as reported in the
Federal Procurement Data System (FPDS). A limited review of task orders issued
under Schedule contracts indicated that a substantial portion of the work was consistent
with AMS services, which were outside the scope of the Schedule contracts utilized.
Agencies issuing orders for services that are beyond the scope of the base contract
circumvent competition requirements by limiting the pool of qualified contractors. An
overly broad definition of the IT Services Schedule SIN under which agencies ordered
the majority of these services may have contributed to this situation. The scope of work
for the orders we reviewed included other types of services; however, due to time
constraints we were not able to determine the degree to which the work was for AMS
services. FAS should evaluate the extent to which agencies are improperly using
Schedule contracts to order AMS services and implement corrective action. FAS
should also evaluate the extent to which Schedule contractors are improperly providing
AMS services under their Schedule contracts and take corrective action.

In order to understand the Government’s demand for AMS services under Schedule
contracts, we analyzed information in FPDS for the acquisition of these services. We
queried FPDS by product/service code (PSC) R707, which GSA identifies as Contract,
Procurement, and Acquisition Support Services. The query indicated that the majority
of PSC R707 orders placed under the Schedules Program in FY 2007 and FY 2008
utilized IT Schedule contracts.


                                                            
14
  FSS Acquisition Letter FC-00-01, Supplement No. 3, GSA Form 1649 - Notification of Federal Supply Schedule
Improvement Process (March 2000).

                                                               12 
 


Exhibit 3: PSC R707 Sales under Schedule Contracts in FY 2007 & FY 2008

                        Schedule                              FY 2007       FY 2008      Total Sales
                                                               Sales         Sales
    IT - General Purpose Commercial Information
                                                             $42,206,210   $41,947,262   $84,153,471
    Technology Equipment, Software, and Services
    874 - Mission Oriented Business Integrated
                                                             $7,393,525    $8,442,801    $15,836,326
    Services (MOBIS)

    871 - Professional Engineering Services (PES)            $3,018,080    $1,860,399    $4,878,478

    874 V - Logistics Worldwide (LOGWORLD)                   $2,632,201     $616,721     $3,248,922

    36 - The Office, Imaging and Document Solution           $1,081,803        $-        $1,081,803

    736 - Temporary Administrative and Professional
                                                              $697,827      $475,963     $1,173,791
    Staffing (TAPS)
    541 - Advertising & Integrated Marketing
                                                              $539,370         $-         $539,370
    Solutions (AIMS)
    56 - Buildings and Building Materials/Industrial
                                                              $218,904         $-         $218,904
    Services and Supplies
    00CORP - The Consolidated Schedule                           $-         $294,157      $294,157
    84 - Total Solutions for Law Enforcement,
    Security, Facilities Management, Fire, Rescue,
                                                                 $-         $164,949      $164,949
    Clothing, Marine Craft and Emergency/Disaster
    Response


PSC R707 orders under IT Schedule contracts accounted for 73 percent of the total
PSC R707 orders under the Schedules Program in FY 2007 and 78 percent in FY 2008.
To obtain more information regarding the nature of the work ordered, we requested task
order information from 9 of the 36 IT Schedule contractors we identified in FPDS with
PSC R707 sales in FY 2008. We determined that all but 1 of the 45 task orders
awarded to these contractors in FY 2008 were from one U.S. Air Force contracting
office. Task order information indicated that the purpose of these acquisitions was to
assure continuity of A&AS [advisory and assistance services] support amidst expiring
contracts providing the same services. Based on feedback from IT Schedule vendors,
an overly broad definition of the IT Schedule SIN under which agencies ordered these
services may have contributed to this situation. However, the contractors did not
provide adequate information on the exact nature of the work; accordingly, we were
unable to determine the portion of the work that was AMS services. In addition, the
contractors have since completed the work on these orders, and we did not contact the
ordering agency due to time constraints.

Our assessment of the performance work statement (PWS) for each task order
indicated that the IT Schedule contractors were performing, to some degree, AMS
services under SIN 132 51 – Information Technology Services. GSA describes the
scope of this SIN as follows:

                                                       13 
 


        Includes resources and facilities management, database planning and
        design, systems analysis and design, network services, programming,
        millennium conversion services, conversion and implementation support,
        network services project management, data/records management,
        subscriptions/publications (electronic media), and other services.

FAS officials indicated that AMS services are not within the scope of the IT Schedule.
The PWS listed acquisition support as the first category of work. The PWS also
included “A full range of A&AS …to include acquisition, financial management,
contracting, administrative and human resources, and engineering support throughout
the life of this contract...” Some of the services listed in the scope of work as acquisition
services included:

       Assisting in reviewing contractor deliverable status together with milestone
        schedules, status reports, and cost performance reports;
       Assisting in reviewing or proposing inputs to Request for Proposal, including
        Statements of Objective, Performance Work Statements;
       Providing administrative support to the procurement contracting officer in the
        areas of file preparation;
       Generation of modifications;
       Preparation of new awards;
       Drafting required documents to accomplish proper contract administration;
       Assisting in the preparation of Price Negotiation Memorandums;
       Assisting in the technical evaluation of proposals; and
       Assisting in contract closeouts.

Task orders issued outside the scope of the SINs covered under a particular Schedule
restrict competition because it excludes from consideration the pool of contractors
capable of performing the work. In addition, the acquisition of AMS services under
Schedule contracts where FAS has not established the same controls afforded on the
MOBIS Schedule may heighten the Government’s exposure to the risks associated with
AMS services. Therefore, FAS should assess the extent of Schedule misuse for AMS
services and take corrective action. The corrective action could include clarifying the
SIN description and/or sanctions for ordering agencies and vendors as defined in the
terms and conditions of the contract. The IT Schedule solicitation states that, “As a
condition of using this contract, eligible ordering activities agree to abide by all terms
and conditions of the Schedule contract.” In addition, the IT Schedule contract terms
and conditions state, “The Government may terminate this contract... if the Contractor
fails to comply with any contract terms and conditions...”




                                             14 
 


Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

    5. Assess the extent to which agencies are improperly using Schedule contracts to
       order AMS services and implement corrective action. The corrective action
       should include guidance to customer agencies on the proper use of Schedule
       contracts.
    6. Assess the extent to which Schedule contractors are improperly providing AMS
       services and take corrective action. The corrective action should include
       guidance to contractors on what services are appropriate for the Schedule.
 
 
Conclusion

The MSC has developed ordering instructions to assist agencies in mitigating risks
associated with obtaining AMS services through the Schedules Program. These
instructions provide fundamental principles for limiting the Government’s exposure to
fraud, waste, and abuse when acquiring these services. The MSC can improve the
ordering instructions by emphasizing measures that address the leading causes of risk
with these services. In addition, the MSC should fully communicate the ordering
instructions to assure greater awareness to agencies contemplating the use of the
Schedules Program to obtain AMS services. As an additional control measure, the
MSC should develop and implement a plan to monitor the quality of the ordering
instructions. Monitoring is key to the success of any control activity and should provide
management with information to improve the guidance as necessary.

A risk assessment is an important tool for internal control to identify weaknesses and
necessary control activities. Therefore, FAS’s process for making changes to the
Schedules Program should require acquisition centers to assess the risk associated
with proposed changes. This step will strengthen the Schedules Program by providing
additional assurance that the program effectively meets agencies’ needs.

Central to the Government’s requirement to obtain products and services at reasonable
prices is competition. Products and services procured outside the authorized scope of a
Schedule contract undermine competition by limiting the pool of qualified vendors. Our
review identified significant purchases of contract, procurement, and acquisition support
services using non-authorized Schedule contracts, as reported by the ordering agencies
in FPDS. FAS should assess the extent that agencies are inappropriately procuring
these services through Schedule contracts and implement corrective measures. In
addition to undermining competition, risks of conflicts of interest and inherently
governmental work are increased because agencies using contracts outside the MOBIS
Schedule to procure AMS services do not have the benefit of the MSC’s Special
Ordering Instructions to assist them in mitigating risk.



                                           15 
 


Internal Controls

We limited our assessment of internal controls to those related to the Special Ordering
Instructions and the process for making changes to the Schedules Program. We
provided recommendations to strengthen and improve the current controls associated
with the use of Schedules contracts for AMS services as discussed in the Results of
Review and Recommendations sections of this report.


Management Comments

In his July 29, 2010, response to the draft report, the Commissioner of the Federal
Acquisition Service concurred with our findings. Management indicated that steps to
implement recommendations cited in the report are already underway. Management’s
written comments to the draft report are included in their entirety as Appendix A.




                                          16 
 




    APPENDICES




 
 


    REVIEW OF THE USE OF MULTIPLE AWARD
    SCHEDULE CONTRACTS FOR ACQUISITION
       MANAGEMENT SUPPORT SERVICES
      REPORT NUMBER A090018/Q/A/P10009


                APPENDIX A

           Management Comments




                    A‐1 
 




    A‐2 
 




    A‐3 
 


                    REVIEW OF THE USE OF MULTIPLE AWARD
                    SCHEDULE CONTRACTS FOR ACQUISITION
                       MANAGEMENT SUPPORT SERVICES
                      REPORT NUMBER A090018/Q/A/P10009


                                      APPENDIX B

                                  Report Distribution

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                        3

Internal Control and Audit Division (BEI)                            1

Regional Administrator Region 10                                     1

Assistant Inspector General for Auditing (JA, JAO)                   2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Contract Audits (JA-C)        1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                            B‐1 
